HHS/OIG-Audit--"Follow-up Review of Possible Improper Pre-Approval Promotion Activities, (A-15-93-00018)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up Review of Possible Improper Pre-Approval Promotion Activities,"
(A-15-93-00018)
September 29, 1994
Complete Text of Report is available in PDF format
(1.67 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our follow-up review of our May 1991
report entitled, "Need for the Food and Drug Administration to Review Improper
Pre-Approval Promotional Activities" (A-15-91-00007). The May 1991 review
looked at possible pre-approval promotion of bovine somatotropin (bST), a new
animal drug developed to increase milk production in cows, which was still under
review by the FDA's Center for Veterinary Medicine (CMV). Our current review
found that CVM took appropriate corrective action in anticipation of recommendations
made in our May 1991 report. In addition, CVM appropriately concluded that,
overall, Monsanto-sponsored focus groups and a video produced beginning in December
1992 did not violate the intent of Federal regulations. However, we also found
that CVM should have issued a warning letter stating that regulatory action
would be taken should violative activities occurring at a January 1993 university
seminar continue. The report makes recommendations to ensure that the Federal
regulations governing pre-approval promotion is revised, in part, to address
activities that sponsors can undertake while still being in compliance with
this regulation. The PHS generally agreed with our recommendations.